Office of Material Loss Reviews
Report No. MLR-11-009


Material Loss Review of R-G Premier Bank
of Puerto Rico, Hato Rey, Puerto Rico




                                  December 2010
                                       Executive Summary

                                       Material Loss Review of R-G Premier Bank of
                                       Puerto Rico, Hato Rey, Puerto Rico
                                                                                         Report No. MLR-11-009
                                                                                                December 2010

Why We Did The Audit
On April 30, 2010, the Office of the Commissioner of Financial Institutions of the Commonwealth of Puerto
Rico (OCFI) closed R-G Premier Bank of Puerto Rico (R-G Premier), Hato Rey, Puerto Rico, and named the
FDIC receiver. On June 2, 2010, the FDIC notified the Office of Inspector General (OIG) that R-G Premier’s
total assets at closing were $6 billion and the estimated loss to the Deposit Insurance Fund (DIF) was
$1.2 billion. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended by the
Dodd-Frank Wall Street Reform and Consumer Protection Act, the OIG conducted a material loss review of
the failure.

The objectives were to (1) determine the causes of failure for R-G Premier and the resulting material loss to the
DIF and (2) evaluate the FDIC’s supervision of the institution, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
R-G Premier was 1 of 10 banks operating in Puerto Rico before the bank was closed. Three of these
10 banks—R-G Premier, Westernbank Puerto Rico, and Eurobank—were closed on April 30, 2010. The
closure of these banks followed several years of severe economic recession in Puerto Rico. Further, insured
depository institutions in Puerto Rico have become increasingly reliant on non-core funding sources,
particularly brokered deposits, over the past decade. This reliance on brokered deposits has been attributed to
several factors, including U.S. tax policy, legislation enacted by the Puerto Rico government, and competition
for retail deposits.

R-G Premier was established in 1983 as a federal savings bank. The FDIC became the institution’s primary
federal regulator in November 1994 when R-G Premier converted to a state-chartered nonmember bank.
Between 1994 and 2004, R-G Premier grew its total assets from $460 million to over $9 billion. The bank’s
lending activities during this period focused primarily on 1-to-4 family residential properties. From 2004 until
it failed, R-G Premier experienced almost no growth in its loan portfolio, and its total assets declined. In
addition, the bank had a diverse loan portfolio consisting of commercial real estate (CRE) loans; acquisition,
development, and construction (ADC) loans; commercial and industrial loans; and residential real estate loans.
However, risk within the loan portfolio grew as ADC loans increased between 2004 and 2008. In addition to a
main office in Hato Rey, R-G Premier operated a network of 32 branches throughout Puerto Rico. The
institution was wholly-owned by R&G Financial Corporation (RGFC), a publicly-traded bank holding
company headquartered in Hato Rey. In addition to R-G Premier, RGFC owned several other subsidiaries that
engaged in banking, mortgage banking, and insurance agency-related activities. RGFC and R-G Premier
shared the same Board directors.


Audit Results

Causes of Failure and Material Loss

R-G Premier failed primarily because its Board and management did not provide effective oversight of the
institution and failed to react in a timely manner to deteriorating economic conditions in Puerto Rico.
Problems first surfaced at the bank in 2005, when RGFC determined that certain transactions involving the
transfer of mortgage loans from RGFC and its subsidiaries to other financial institutions between 2000 and
2004 had been improperly accounted for as sales and needed to be reclassified as secured financings. R-G


                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                       Material Loss Review of R-G Premier Bank of
                                       Puerto Rico, Hato Rey, Puerto Rico
                                                                                         Report No. MLR-11-009
                                                                                                December 2010

Premier wrote off approximately $101 million in assets during 2006 that had been generated by the purported
sales, and an additional $68 million in assets were written-off in 2009. The Boards and management of RGFC
and R-G Premier spent considerable time and resources addressing this matter and the problems that it caused.
Despite these efforts, it took RGFC more than 2 years to revise its consolidated financial statements for the
periods covered by the transactions. In addition, financial statements for subsequent years were not issued in a
timely manner. The delays in issuing the financial statements reduced financial transparency, impacted R-G
Premier’s Call Reports, and limited the ability of RGFC and its subsidiaries to attract needed capital.

Management turnover during 2006 and 2007 presented additional disruptions, making oversight of the bank’s
business operations, including its lending function, problematic. During the years preceding its failure, the
bank increased its exposure to ADC loans. However, the institution failed to establish and implement credit
administration and related monitoring practices that were commensurate with the higher risk associated with
those loans. The inadequate practices played a significant role in the loan problems that developed when the
Puerto Rico real estate market deteriorated. Lax underwriting also contributed to the bank’s loan problems.
Further, even under the unique funding circumstances that Puerto Rico banks faced, R-G Premier’s Board and
management maintained a high reliance on non-core funding sources, particularly brokered deposits, to
provide the bank with adequate liquidity and support its operations, including its lending activities. After the
Puerto Rico economy fell into recession and the bank’s asset quality deteriorated, R-G Premier’s access to
non-core funding sources became restricted, placing a severe strain on the bank’s liquidity position.

The credit quality of R-G Premier’s loan portfolio began to decline in 2007. By year-end 2008, more than 14
percent of the institution’s loans were nonperforming. This negative trend continued into 2009, with the
majority of problems centered in the bank’s ADC loan portfolio. The provisions and losses associated with
this deterioration depleted R-G Premier’s earnings, eroded its capital, and strained its liquidity. OCFI closed
the bank in April 2010 because it did not have sufficient capital to support its operations, and its liquidity
position was severely strained.

The FDIC’s Supervision of R-G Premier

The FDIC, in coordination with the OCFI, provided ongoing supervisory oversight of R-G Premier through
regular on-site examinations, visitations, a targeted review, and various offsite monitoring activities. The
FDIC also coordinated with representatives of the Board of Governors of the Federal Reserve System (FRB)
on supervisory issues of mutual interest. Notably, in 2006, the FDIC’s New York Regional Office recognized
the need to closely monitor economic and banking trends in Puerto Rico. Those monitoring efforts led to the
development of an integrated supervisory strategy in the fall of 2007 for all institutions operating in Puerto
Rico. This broader strategy consisted of: (1) annual onsite safety and soundness examinations performed
jointly with the OCFI, (2) offsite monitoring activities, and (3) targeted asset quality reviews and horizontal
loan classification reviews.

Through its supervisory efforts, the FDIC identified risks in R-G Premier’s operations and brought these risks
to the attention of the institution’s Board and management through examination reports, correspondence, and
formal and informal enforcement actions. Such risks included the lack of current consolidated financial
statements, the need to improve credit administration practices, and the heavy reliance on non-core funding
sources. The FDIC’s supervisory activities were also instrumental in implementing a well-coordinated
resolution for the three failed Puerto Rico banks.

To address R-G Premier’s improper accounting for mortgage loan transactions, the FDIC downgraded the
bank’s supervisory ratings, implemented a C&D, and coordinated with the FRB and the OCFI to conduct a
review of RGFC and its affiliates for other potential safety and soundness concerns. The FDIC also monitored



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                        Material Loss Review of R-G Premier Bank of
                                        Puerto Rico, Hato Rey, Puerto Rico
                                                                                           Report No. MLR-11-009
                                                                                                  December 2010

the bank’s corrective actions thereafter. Such a supervisory response was comprehensive and consistent with
the risks that the mortgage loan accounting issues presented to the bank.

At the time of the September 2005 and October 2006 examinations, the bank was increasing its ADC lending
while the attention of the Board and management was focused on addressing issues pertaining to the improper
accounting for mortgage loan transactions. Examiners lowered the bank’s Management component rating to a
“3” based, in part, on less than satisfactory risk management practices. With respect to loan underwriting and
credit administration, examiners found those practices to be generally satisfactory. Further, examiners
determined that the bank’s capital was satisfactory but recommended in the October 2006 examination that the
institution’s capital plan be enhanced. While it is evident that the FDIC evaluated and monitored R-G
Premier’s activities in these areas, subsequent examinations found the bank’s capital plan to be unsatisfactory
and loan underwriting and credit administration to be inadequate.

A general lesson learned with respect to weak risk management practices is that early supervisory intervention
is prudent, even when an institution is considered Well Capitalized and has relatively few classified assets. In
this regard, stronger supervisory action, such as an informal enforcement action, to address the weak risk
management practices identified during the December 2007 examination may have been prudent, considering:

    •   the vulnerability of CRE and ADC concentrations to economic cycles;
    •   the market factors in Puerto Rico that made ADC lending riskier than in other U.S. markets;
    •   the importance of strong underwriting and credit administration practices; and
    •   R-G Premier’s less than satisfactory capital position for is risk profile.

Earlier supervisory intervention may have better positioned R-G Premier to work through the loan
deterioration that developed as the Puerto Rico real estate market deteriorated, mitigating, to some extent, the
financial problems experienced by the bank. Further, while banks in Puerto Rico faced unique challenges in
attracting core deposits, earlier supervisory concern with respect to R-G Premier’s heavy reliance on brokered
deposits might also have been prudent. Earlier concern in this regard may have influenced R-G Premier’s
Board to reduce its reliance on brokered deposits, thereby reducing the bank’s liquidity risk profile.

Based on the supervisory actions taken with respect to R-G Premier, the FDIC properly implemented
applicable PCA provisions of section 38.

The FDIC has taken a number of steps to enhance its supervision program based on the lessons learned from
financial institution failures during the financial crisis. With respect to the issues discussed above, the FDIC
has, among other things, provided training to its examination workforce wherein the importance of assessing
an institution’s risk management practices on a forward-looking basis was emphasized. The FDIC has also
issued supervisory guidance addressing risks associated with ADC lending and funds management practices.


Management Response
After we issued our draft report, management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 2, 2010, the Director, Division of
Supervision and Consumer Protection (DSC), provided a written response to the draft report. In the response,
DSC reiterated the causes of R-G Premier’s failure and the supervisory activities described in our report. The
response noted that the bank was unable to adequately address supervisory recommendations and enforcement
measures. The response also referenced actions that DSC has taken in response to recent failures, such as
issuing guidance to banks on the risks of volatile funding sources and proving training to examiners.



                                  To view the full report, go to www.fdicig.gov
                                 Contents
                                                                      Page
Background                                                              2

Causes of Failure and Material Loss                                     5
  Board and Management Oversight                                        6
  Accounting for Mortgage Loan Transactions and Restating Financial     7
    Statements
  ADC Lending                                                           9
  Oversight of the Lending Function                                    12
  Reliance on Non-Core Funding                                         13

The FDIC’s Supervision of R-G Premier                                  15
  Supervisory History                                                  16
  Supervisory Response to Improper Accounting and Reporting for
    Mortgage Loan Transactions                                         20
  Supervisory Response to ADC Lending Risks                            22
  Supervisory Response to Non-Core Funding Reliance                    24
  Implementation of PCA                                                26

Corporation Comments                                                   28

Appendices 
  1. Objectives, Scope, and Methodology                                29
  2. Glossary of Terms                                                 32
  3. Acronyms                                                          35
  4. Apparent Violations and Contraventions, 2004 to 2009              36
  5. Corporation Comments                                              37

Tables
   1. Selected Financial Information for R-G Premier, 2004 to 2009      3
   2. On-site Examinations, Visitation, and Targeted Review of
       R-G Premier                                                     17
   3. R-G Premier’s Capital Levels, 2005 to 2009                       27

Figures
   1. Trend in R-G Premier’s Total Assets, 1994 to 2009                 2
   2. Composition and Growth of R-G Premier’s Loan Portfolio            9
   3. Trend in R-G Premier’s ADC Loan Concentration Compared to
       Other Puerto Rico Banks and Peer Group                          10
   4. Loan Charge-offs, January 1, 2005 through March 31, 2010         11
   5. Trend in R-G Premier’s Brokered Deposits Relative to Total
       Assets                                                          14
Federal Deposit Insurance Corporation                                         Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     December 2, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of R-G Premier Bank of Puerto Rico,
                                          Hato Rey, Puerto Rico
                                          (Report No. MLR-11-009)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of R-G Premier Bank of Puerto Rico (R-G Premier), Hato Rey,
Puerto Rico. The Office of the Commissioner of Financial Institutions of the
Commonwealth of Puerto Rico (OCFI) closed the bank on April 30, 2010 and appointed
the FDIC as receiver. On June 2, 2010, the FDIC notified the OIG that R-G Premier’s
total assets at closing were $6 billion and that the estimated loss to the Deposit Insurance
Fund (DIF) was $1.2 billion. The estimated loss exceeds the $200 million MLR
threshold for losses occurring between January 1, 2010 and December 31, 2011, as
established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of R-G
Premier’s failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s
supervision of R-G Premier, including the FDIC’s implementation of the PCA provisions
of section 38 of the FDI Act. This report presents our analysis of R-G Premier’s failure
and the FDIC’s efforts to ensure that the Board of Directors (Board) and management
operated the institution in a safe and sound manner. The report does not contain formal
recommendations. Instead, as major causes, trends, and common characteristics of
institution failures are identified in our MLRs, we will communicate those to FDIC
management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of the FDIC’s supervision program and make
recommendations as warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. Appendix 2
contains a glossary of key terms, including material loss, the FDIC’s supervision
program, and the Uniform Financial Institutions Rating System, otherwise known as the
CAMELS ratings. Appendix 3 contains a list of acronyms. Appendix 4 provides a
listing of apparent violations and contraventions of laws, rules, regulations, and policy
from 2004 to 2009. Appendix 5 contains the Corporation’s comments on this report.


Background
History and Description of R-G Premier

R-G Premier was established in 1983 as a federal savings bank. The FDIC became the
institution’s primary federal regulator in November 1994 when R-G Premier converted to
a state-chartered nonmember bank. As reflected in Figure 1, R-G Premier grew its total
assets from $460 million to over $9 billion between 1994 and 2004. The bank’s lending
activities during this period focused primarily on 1-to-4 family residential properties.
From 2004 until it failed, R-G Premier experienced almost no growth in its loan portfolio
and its total assets declined. In addition, the bank had a diverse loan portfolio consisting
of commercial real estate (CRE) loans; acquisition, development, and construction
(ADC) loans; commercial and industrial loans; and residential real estate loans.
However, risk within the bank’s loan portfolio increased as management began
increasing the portion of the portfolio that was associated with CRE, especially ADC.

Figure 1: Trend in R-G Premier’s Total Assets, 1994 to 2009
                                 10,000

                                  9,000
    Total Assets (in millions)




                                  8,000
                                          R-G Total Assets
                                  7,000

                                  6,000

                                  5,000

                                  4,000

                                  3,000

                                  2,000

                                  1,000

                                    -
                                          94

                                          95

                                          96

                                          97

                                          98

                                          99

                                          00

                                          01

                                          02

                                          03

                                          04

                                          05

                                          06

                                          07

                                          08

                                          09
                                        19

                                        19

                                        19

                                        19

                                        19

                                        19

                                        20

                                        20

                                        20

                                        20

                                        20

                                        20

                                        20

                                        20

                                        20

                                        20




                                                             Year
Source: OIG Analysis of data obtained from the FDIC’s Institution Directory.

1
A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of this report.
                                                     2
In addition to a main office in Hato Rey, R-G Premier operated 32 branches throughout
Puerto Rico. The institution was wholly-owned by R&G Financial Corporation (RGFC),
a publicly-traded bank holding company headquartered in Hato Rey.2 In addition to R-G
Premier, RGFC owned several other subsidiaries that engaged in banking, mortgage
banking, and insurance agency-related activities. Most notably, RGFC owned R-G
Mortgage Corporation, which engaged in a wide range of mortgage activities (including
the securitization and sale of mortgage-backed securities), and R-G Crown Bank FSB,
which was sold in November 2007. RGFC’s Board Chairman, who also served as the
Board Chairman of R-G Premier, controlled approximately 58 percent of the holding
company’s stock. The remaining stock was held by a number of other investors. RGFC
and R-G Premier shared the same Board directors. Table 1 summarizes selected financial
information pertaining to R-G Premier for the 6-year period ending 2009.

Table 1: Selected Financial Information for R-G Premier, 2004 to 2009
    Financial Measure
    ($000s)                 Dec-09        Dec-08       Dec-07        Dec-06        Dec-05        Dec-04
    Total Assets           6,058,499     6,969,629     7,364,202    8,481,056     8,893,411     9,029,688
    Total Loans            5,433,667     5,736,184     5,356,785    5,504,306     5,814,935     5,462,926
    Total Deposits         4,252,763     4,468,194     4,521,316    4,584,045     4,064,484     3,427,932
    Brokered Deposits      2,107,059     2,246,372     1,937,143    1,788,807     1,330,610      714,794
    ADC as Percent of
    Total Capital*            238           212           161          130           101           77
    Net Income (Loss)       -71,311      -114,120       -3,724        32,396        96,877       80,721
    Return on Average
    Assets                    -1.09        -1.59         -0.05         0.38          1.17          1.17
    Tier 1 Leverage
    Capital Ratio             5.53          5.84         6.37          5.83          5.27          5.22
Source: Uniform Bank Performance Reports (UBPR) for R-G Premier.
* The increase in ADC as a Percent of Total Capital during 2008 and 2009 was largely attributable to a
decrease in capital. R-G Premier slowed its ADC lending in 2007, and by August 2008, was no longer
originating new ADC loans.

R-G Premier was 1 of 10 banks operating in Puerto Rico before the bank was closed.
Three of these 10 banks—R-G Premier, Westernbank Puerto Rico, and Eurobank, were
closed on April 30, 2010.

Economic Conditions in Puerto Rico

Puerto Rico’s economy has been in a severe recession for a number of years. The Puerto
Rico Planning Board reported that the gross national product for the fiscal year ending
June 2010 marked the island’s fourth consecutive year of economic contraction.
Reported factors contributing to the economic contraction include a significant increase
in oil prices, budgetary pressures on government finances, and the continued loss of
2
 RGFC was regulated by the Board of Governors of the Federal Reserve System (FRB) and OCFI. As a
publically traded company, RGFC was also under the jurisdiction of the Securities and Exchange
Commission (SEC) and subject to certain disclosure and regulatory requirements defined in federal
securities laws. In 2005, R-G Premier’s total assets accounted for 66 percent of RGFC’s consolidated
assets. By 2009, this percentage had increased to more than 90 percent. This increase can be attributed to
several factors, most notably the sale of R-G Crown Bank FSB, a subsidiary of RGFC.
                                                      3
manufacturing jobs. The decline in employment on the island has been acute, and the
percentage of jobs lost has been nearly double that of the U.S. The unemployment rate in
Puerto Rico reach 17.2 percent in April 2010, the island’s highest rate in 17 years. The
unemployment rate eased to 16 percent in September 2010 but remains well above the
U.S rate of 9.6 percent.3 Further, the downturn in the U.S.4 economy has exacerbated
economic conditions on the island as exports of goods to the U.S. have plummeted and
tourism has declined.

Although Puerto Rico’s economy is closely linked to the U.S. economy, job losses in
Puerto Rico pre-date job losses in the U.S. by 3 years and have their root in changes in
the island’s tax structure. Specifically, the Tax Reform Act of 1976 established the
possessions tax credit under Section 936 of the U.S. Internal Revenue Service (IRS) code,
which was enacted to encourage economic development in U.S. possessions such as
Puerto Rico, the U.S. Virgin Islands, and Guam. Section 936 exempted U.S. corporations
from paying federal income tax on profits generated by a qualified Puerto Rico-based
subsidiary of a U.S. corporation. The stated purpose of this tax credit was to “assist the
U.S. possessions in obtaining employment-producing investments by U.S. corporations.”
While the tax law was in effect, Puerto Rico’s manufacturing base experienced strong
employment growth.

During the 1980s and early 1990s, several large U.S.-based pharmaceutical, medical
equipment, and metals manufacturing companies opened or expanded their operations in
Puerto Rico, which resulted in manufacturing surpassing agriculture as the primary
source of domestic income. However, legislation enacted in 1996 phased out the tax
incentives over a 10-year period and has been identified as a key factor in manufacturing-
related job losses on the island. Other reasons cited for the decline in Puerto Rico’s
manufacturing job base include an escalation in local labor and energy costs relative to
international competitors and the loss of patents on some pharmaceutical products that
are produced in Puerto Rico.

With respect to the housing sector, home prices and new home construction on the island
have declined steadily since 2006 and contributed to a sharp decline in the number of
construction jobs. The reduction in new construction activity in Puerto Rico occurred at
about the same time as it did in the U.S., but the decline has been more severe.

Funding Structure of Puerto Banks

Over the past decade, insured depository institutions in Puerto Rico became increasingly
dependent on non-core funding sources, particularly brokered deposits. Between
June 30, 1999 and June 30, 2009, brokered deposits increased from 13 percent to
40 percent of total deposits held by insured banks in Puerto Rico. This dependence on
brokered deposits can be attributed to several factors, including the repeal of the IRS
Code Section 936 and growth in Puerto Rico Investment Companies (PRICs). Section
936 essentially provided banks with low-cost corporate deposit accounts and balances.
When the statute was repealed, those funds left Puerto Rico banks and were largely

3
    U.S. employment data as of October 2010 from the U.S. Department of Labor, Bureau of Labor Statistics.
4
    For purposes of this discussion, we used U.S. to refer to the 50 states.
                                                        4
replaced by brokered deposits. Additionally, over the past 10 years, PRICs attracted
deposits away from commercial banks given their low-cost tax exempt investment
products. The favorable yield, steady income stream, and capital preservation features of
PRICs make them more attractive than bank deposit products.

In addition, there is significant competition among banks and “cooperativas” (state-
chartered institutions similar to credit unions) for core deposits on the island. As of
March 31, 2009, there were 123 “cooperativas” in Puerto Rico. Due to intense
competition, local deposits tend to be priced higher than brokered deposits. Like other
banks in Puerto Rico, R-G Premier was heavily dependent on brokered deposits.


Causes of Failure and Material Loss
R-G Premier failed primarily because its Board and management did not provide
effective oversight of the institution and failed to react in a timely manner to deteriorating
economic conditions in Puerto Rico. Problems first surfaced at the bank in 2005, when
RGFC determined that certain transactions involving the transfer of mortgage loans from
RGFC and its subsidiaries to other financial institutions between 2000 and 2004 had been
improperly accounted for as sales and needed to be reclassified as secured financings.
R-G Premier wrote off approximately $101 million in assets during 2006 that had been
generated by the purported sales, and an additional $68 million in assets were written-off
in 2009. The Boards and management of RGFC and R-G Premier spent considerable
time and resources correcting this matter and addressing the problems that it caused.
However, RGFC did not revise its consolidated financial statements for the periods
covered by the transactions in a timely manner, and its financial statements for
subsequent years were significantly delayed. The delays in issuing the financial
statements reduced financial transparency, impacted R-G Premier’s Consolidated Reports
of Condition and Income (Call Reports), and limited the ability of RGFC and its
subsidiaries to attract needed capital.

Management turnover during 2006 and 2007 presented additional disruptions, making
oversight of the bank’s business operations, including its lending function, problematic.
During the years preceding its failure, the bank increased its exposure to ADC loans.
However, the institution failed to establish and implement credit administration and
related monitoring practices that were commensurate with the higher risk associated with
those loans. The inadequate practices played a significant role in the loan problems that
developed when the Puerto Rico real estate market deteriorated. Lax underwriting also
contributed to the bank’s loan problems. Further, R-G Premier’s Board and management
maintained a high reliance on non-core funding sources, particularly brokered deposits, to
provide the bank with adequate liquidity and support its operations, including its lending
activities. After the Puerto Rico economy fell into recession and the bank’s asset quality
deteriorated, R-G Premier’s access to non-core funding sources became restricted,
placing a severe strain on the bank’s liquidity position.

The credit quality of R-G Premier’s loan portfolio began to decline in 2007. By year-end
2008, more than 14 percent of the institution’s loans were nonperforming. This negative
                                              5
trend continued into 2009, with the majority of problems centered in the bank’s ADC
loan portfolio. The provisions and losses associated with this deterioration depleted R-G
Premier’s earnings, eroded its capital, and strained its liquidity. OCFI closed the bank in
April 2010 because it did not have sufficient capital to support its operations and its
liquidity position was severely strained.

Board and Management Oversight

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the affairs of the institution. Executive officers, such as the
President and CEO, Chief Lending Officer (CLO), and Chief Financial Officer (CFO),
have primary responsibility for managing the day-to-day operations and affairs of the
bank. Further, ensuring appropriate corrective actions to regulatory concerns is a key
responsibility of the Board.

R-G Premier’s Board and management did not provide effective oversight of the bank’s
operations. As described later, RGFC and it subsidiaries (including R-G Premier) did not
properly account for certain mortgage loan transactions that occurred between 2000 and
2004. According to an internal bank management report, the improper accounting
stemmed from material weaknesses in internal control over financial reporting, and in
some cases, inappropriate conduct or insufficient supervision by certain senior
management officials at RGFC and R-G Premier. In addition, RGFC did not maintain
current consolidated financial statements, limiting the ability of RGFC and its
subsidiaries to attract needed capital and affecting R-G Premier’s submission of Call
Reports.

Management turnover during 2006 and 2007 presented additional disruptions, and newly
hired bank officials were not successful in addressing the bank’s problems. The lack of
strong management leadership made oversight of the bank’s operations more
problematic. As described later, a lack of Board and management oversight of the
lending function and a high reliance on non-core funding sources, particularly brokered
deposits, contributed to the financial problems that developed at the bank when economic
conditions deteriorated in Puerto Rico. A management report prepared by an outside
consultant on behalf of R-G Premier in November 2009 provided further evidence that
the institution’s management practices and organizational structure needed improvement.
Among other things, the report recommended that the bank seek a new President and
CEO, or hire an external bank turnaround consultant to advise the President and CEO on
leadership and communication skills. The report also recommended that the bank re-
align the roles and responsibilities of key senior bank officials, strengthen internal
controls, and restructure the Board by adding new members with experience.




                                             6
Accounting for Mortgage Loan Transactions and Restating Financial Statements

Between 2000 and 2004, RGFC and its subsidiaries entered into a number of privately
negotiated transactions with other financial institutions in Puerto Rico to transfer pools of
mortgage loans, the majority of which were originated by RGFC and/or its subsidiaries.
These transactions were recorded on the books and records of RGFC and its subsidiaries
as sales. However, the terms of the transactions included provision(s) wherein RGFC
and/or its subsidiaries guaranteed the purchaser a specified pass-through interest rate for
the loan pools. Any cash flows that were expected to be received on the mortgage loan
pools above the pass-through rates (referred to herein as “residual interests”)5 were
retained by RGFC and/or its subsidiaries and reflected on their books and records as both
income and an asset. As of June 30, 2005, residual interests created by these transactions
totaled $210 million on a consolidated holding company basis. Of this amount,
$97 million was recorded on R-G Premier’s balance sheet as an asset.

In addition to the residual interest described above, RGFC and its subsidiaries recognized
the value of mortgage servicing rights on their books and records in connection with the
transactions. Like the residual interests, the value of the mortgage servicing rights was
recognized as both income and an asset. As of June 30, 2005, mortgage servicing rights
generated by the transactions totaled $125 million on a consolidated holding company
basis. Of this amount, $34 million was reflected on R-G Premier’s balance sheet as an
asset.

In 2005, RGFC determined that the mortgage loan transactions should not have been
accounted for as sales under Generally Accepted Accounting Principles because, as
discussed above, the transactions included a guarantee from RGFC and/or its
subsidiaries. Instead, the transactions should have been recorded as secured financings.6
As a result, R-G Premier was required to unwind the transactions by repurchasing the
mortgage loan pools from the institutions that acquired them and eliminating the gains
and assets created by the transactions. R-G Premier wrote off approximately
$101 million in residual interest and mortgage servicing rights when it reversed the
transactions. Although this amount was not significant enough to lower the bank’s PCA
capital category below Well Capitalized, it reduced the bank’s capital and negatively
affected earnings.

R-G Premier wrote off an additional $68 million in assets during 2009 stemming from
how it accounted for mortgage loan transactions. These write-offs consisted of
(1) accounts receivable created when RGFC’s consolidated financial statements were
restated that reflected the value of mortgage servicing rights transferred from R-G
Premier to its affiliates without compensation and (2) deferred tax assets (DTA)
transferred from RGFC to R-G Premier in 2008 as partial payment for the accounts
5
  The majority of the residual interests were recorded as “Interest/Only strips.”
6
  Statement of Financial Accounting Standards No. 140, Accounting for Transfers and Servicing of
Financial Assets and Extinguishments of Liabilities (SFAS 140), distinguishes transfers of financial assets
that are “true sales” from transfers that are secured borrowings. A transfer is considered a true sale when
all of the following conditions are met: (1) the assets have been isolated from the transferor; (2) the
transferee has the right to pledge or exchange the assets; and (3) the transferor is not obligated to
repurchase the assets before maturity or does not have the ability to cause the transferee to return the assets.
                                                        7
receivable. Examiners determined that R-G Premier’s affiliates did not have the financial
wherewithal to pay the accounts receivable, and it was uncertain whether or when the
bank could use the DTAs. After adjusting capital to reflect the $68 million in write-offs
and additional provision expenses identified by examiners, the bank fell to Adequately
Capitalized.

The Boards and management of RGFC and R-G Premier spent considerable time and
resources working to restate the company’s consolidated financial statements for the
years ended 2002 through 2004.7 However, revised financial statements were not issued
until November 2007. According to examination records we reviewed, R-G Premier’s
President and CEO indicated that the primary reason for the delays in the restatement
process was “back and forth” negotiations between the bank and its independent
accounting firm regarding the language that would be included in the explanatory notes
to the financial statements. Although R-G Premier continued to file its quarterly Call
Reports while RGFC worked to reissue its financial statements, the reports included
estimates because final figures could not be reported until the restatement effort was
complete. R-G Premier filed amended Call Reports on June 27, 2008 to reflect final
figures for the years ended 2002 through 2004. Because of the effort devoted to the
restatement process, RGFC did not issue consolidated financial statements for 2005
through 2007 until June 2009. At that time, RGFC’s independent accounting firm
resigned and RGFC engaged a new accounting firm. RGFC issued consolidated financial
statements for 2008 in February 2010 and did not issue consolidated financial statements
for 2009.

The issues pertaining to the improper accounting of mortgage loan transactions and the
protracted process for issuing revised consolidated financial statements had a negative
impact on R-G Premier. A brief summary follows.

    •   Financial Impact. As previously stated, R-G Premier wrote off assets totaling
        $101 million and $68 million in 2006 and 2009, respectively, which reduced the
        bank’s earnings and capital. In addition, the bank incurred legal, accounting, and
        other overhead costs to correct the improper accounting, unwind the transactions,
        and respond to shareholder lawsuits, an SEC investigation, and actions from
        regulatory authorities. Further, the lack of financial transparency caused by
        RGFC’s inability to issue timely consolidated financial statements limited the
        ability of RGFC and its subsidiaries to attract needed capital.8 Consequently,
        RGFC was not able to serve as a source of financial strength to the bank.

    •   Management Impact. R-G Premier Board minutes that we reviewed stated that
        the bank’s management had not provided proper attention to important risk
7
  Although RGFC and its subsidiaries improperly recorded certain mortgage loan transactions as sales
between 2000 and 2001, the correction of these transactions was reflected through adjustments in the
revised 2002 consolidated financial statements in lieu of re-issuing new financial statements for 2000 and
2001.
8
  RGFC’s common stock was delisted (i.e., removed from trading) from the New York Stock Exchange
(NYSE) on February 22, 2007, after the company failed to comply with the NYSE’s reporting
requirements. By November 2007, the company’s stock was quoted on the Pink Sheets at less than $1 per
share, down from about $40 per share in December 2004.
                                                      8
                                        management concerns at the bank because of the efforts to restate RGFC’s
                                        consolidated financial statements. Further, the resignation or removal of several
                                        senior bank officials in connection with the accounting issues presented additional
                                        disruptions. In January 2006, R-G Premier’s Board accepted the resignation of
                                        both the President and the CFO of the bank and terminated an Executive Vice
                                        President. In addition, R-G Premier’s Board Chairman and CEO resigned in
                                        2007. The individuals that replaced these officials were not successful in
                                        addressing the bank’s problems.

ADC Lending

Prior to 2004, R-G Premier’s lending activities focused primarily on the financing of
1-to-4 family residential properties. In 2004, the bank’s management made a strategic
shift in its lending strategy and began increasing the portion of its loan portfolio that was
associated with ADC. Generally, R-G Premier’s ADC lending focused on residential
construction and development projects in Puerto Rico. As reflected in Figure 2, R-G
Premier’s ADC loans increased from $359 million (or 7 percent of total loans) to more
than $1 billion (or 18 percent of total loans) between 2004 and 2008, respectively. The
majority of the bank’s ADC loans were originated prior to 2007. ADC loan growth in
2007 and 2008 was largely attributed to loan commitments associated with prior
originations, as well as new loan originations. Although the bank’s total loans did not
increase between 2004 and 2008, the credit risk profile of the bank’s loan portfolio was
increasing due to the risky nature of ADC loans.

Figure 2: Composition and Growth of R-G Premier’s Loan Portfolio

                                         $6,000
    Gross Loans and Leases (Millions)




                                         $5,000


                                         $4,000                                                $3,705
                                                              $4,400     $3,722     $3,478               $3,545
                                                   $4,416
                                         $3,000


                                         $2,000
                                                                                    $985       $1,021     $935
                                                                         $1,032
                                         $1,000               $875
                                                    $688
                                                                         $750       $894       $1,010     $954
                                                    $359      $539
                                             $0
                                                   2004       2005       2006       2007       2008       2009
                                                      All Other Loans       Year Ended
                                                      Other CRE Loans
                                                      ADC Loans

Source: OIG analysis of Call Reports for R-G Premier.

In December 2006, the FDIC, the Office of the Comptroller of the Currency, and the FRB
issued joint guidance, entitled, Concentrations in Commercial Real Estate Lending,
                                                                              9
Sound Risk Management Practices (Joint Guidance). Although the Joint Guidance does
not establish specific limits for CRE and ADC lending, it does define criteria that the
agencies use to identify institutions potentially exposed to significant CRE and ADC
concentration risk. According to the Joint Guidance, an institution that has experienced
rapid growth in CRE lending, has notable exposure to a specific type of CRE, or is
approaching or exceeds the following supervisory criteria may be identified for further
supervisory analysis of the level and nature of its CRE concentration risk:

       •        Total CRE loans representing 300 percent or more of total capital where the
                outstanding balance of the institution’s CRE loan portfolio has increased by
                50 percent or more during the prior 36 months; or

       •        Total loans for construction, land development, and other land (referred to in this
                report as ADC) representing 100 percent or more of total capital.

Figure 3 illustrates the trend in R-G Premier’s ADC loan concentration relative to total
capital as compared to all insured banks in Puerto Rico and the bank’s peer group. As
reflected in the figure, the bank’s exposure to ADC loans met the criteria defined in the
Joint Guidance as possibly warranting further supervisory analysis at the time the
guidance was issued. In addition, R-G Premier’s ADC concentration was higher than the
average of other banks in Puerto Rico and banks in R-G Premier’s peer group.9

Figure 3: Trend in R-G Premier’s ADC Loan Concentration Compared to Other
          Puerto Rico Banks and Peer Group

                          300
    Percentage of Total
     ADC Loans as a




                          250
                          200
         Capital




                          150
                          100
                           50
                            0
                                Dec-04   Dec-05      Dec-06       Dec-07              *
                                                                                 Dec-08              *
                                                                                                Dec-09

                                                         Period Ended

                                           R-G Premier      Puerto Rico Banks        Peers

Source: OIG Analysis of UBPRs for R-G Premier and ADC concentration data for all insured commercial
banks in Puerto Rico.
* The increase in R-G Premier’s ADC loans relative to total capital is largely attributable to the bank’s
declining capital levels.

ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. These risks include adverse changes in
market conditions between the time an ADC loan is originated and the time construction

9
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. R-G Premier’s peer group included
insured commercial banks having assets between $1 billion and $3 billion.
                                                      10
is completed, as well as the inherent difficulty of accurately estimating the cost of
construction and the value of completed properties in future periods. Due to these and
other risk factors, ADC loans generally require a greater level of effort to effectively
evaluate and monitor than other types of loans. Adding to the risks associated with R-G
Premier’s ADC loans were characteristics of ADC lending that were unique to Puerto
Rico. Such characteristics included longer timeframes for construction projects as
compared to construction projects in the U.S. and the inability of Puerto Rico developers
to enter into long-term, pre-sale contracts with non-refundable deposits.

At the time of the December 2007 examination, R-G Premier’s adversely classified assets
totaled approximately $261 million, or 42 percent of Tier 1 Capital plus the Allowance
for Loan and Lease Losses (ALLL). While the majority of these classifications were not
ADC, examiners noted emerging problems in the bank’s ADC loan portfolio. By the
February 2009 examination, adversely classified assets had jumped to almost $1.2 billion,
or 183 percent of Tier 1 Capital plus the ALLL. The majority of these classifications
were centered in CRE loans, which included ADC loans.10 By the end of 2009, almost
22 percent of R-G Premier’s $5.3 billion loan portfolio was non-performing. Further,
about 54 percent of the bank’s ADC loan portfolio was non-performing at that time. As
reflected Figure 4, the majority of loan charge-offs between January 1, 2005 and
March 31, 2010 pertained to ADC loans. This is notable since ADC loans represented
less than 20 percent of the bank’s total loan portfolio at the end of 2009.

Figure 4: Loan Charge-offs, January 1, 2005 through March 31, 2010


                           $24,816
                                                      $1,512
                 $18,480




                                                                             $198,014




      ADC loans      1-4 Family Residential       Commercial & Industrial Loans        All Other Loans

Source: Call Reports for R-G Premier.




10
   Of the $1.2 billion in classified assets, $138 million were classified loss. Almost half of the loss
pertained to the accounts receivable created during the financial restatement process and the DTAs
transferred to R-G Premier in 2008 as partial payment for the accounts receivable.
                                                        11
Oversight of the Lending Function

Ineffective Board and management oversight of the lending function contributed to the
asset quality problems that developed at R-G Premier when economic conditions
deteriorated in Puerto Rico. During the December 2007 examination, and more
prevalently during the February 2009 examination, examiners noted weaknesses in the
bank’s loan underwriting, administration, and related monitoring practices. Generally,
these weaknesses became more pronounced as the Puerto Rico real estate market
deteriorated. In addition, an asset valuation review performed on behalf of the FDIC’s
Division of Resolutions and Receiverships (DRR) in early 2010 found that the bank’s
loan portfolio exhibited weak loan underwriting, administration, and related monitoring.
A brief description of some of the more salient weaknesses in R-G Premier’s lending
function follows.

   •   Financial Analysis. Some common deficiencies evident in loan files included a
       lack of current financial statements, limited analysis of debt service coverage, and
       a lack of global cash flow analysis. In addition, construction loan files often
       lacked important documents such as current financial statements, project plans,
       and feasibility studies. Generally, loan underwriting, particularly with respect to
       renewals, focused on the appraised value of the collateral and the guarantor’s
       financial strength.

   •   Appraisals. Appraisal reviews were not always commensurate with the risk, size,
       and complexity of the underlying loans. In addition, the bank did not ensure that
       appraisers’ methods, assumptions, and conclusions were reasonable and
       appropriate for the transaction and property. In some cases, the bank did not
       compare actual market absorption rates to anticipated absorption rates in the
       appraisal or relied on outdated appraisals when extending or renewing loans.
       Further, the February 2009 examination report cited numerous apparent appraisal
       violations. See Appendix 4 for information regarding apparent violations and
       contraventions cited by examiners in examination reports.

   •   Loan Renewals, Extensions, and Modifications. R-G Premier frequently
       renewed, extended, or modified loans without taking adequate steps to ensure that
       the borrower had the capacity to repay the loan or without identifying viable exit
       strategies. In some cases, the renewals, extensions, and modifications may have
       masked loan problems.

   •   Interest Reserves. Management sometimes created interest reserves for loans
       that were not granted for construction purposes (i.e., land loans) and utilized other
       construction funds to make interest payments when interest reserves were fully
       utilized. Further, the bank did not properly track interest reserves.

   •   Construction Monitoring. R-G Premier did not establish a process for
       effectively monitoring and supervising construction and land acquisition projects.
       Among other things, many ADC loans did not have draw files to track the
       progress of construction and funding.
                                            12
     •   Borrower Equity. The bank financed projects for which the borrowers had little
         to no equity in the project. Frequently, construction loans were based on the bank
         receiving a percentage of the sales price once units were sold. As a result, the
         bank had little protection in the event that real estate projects did not sell as
         originally estimated.

     •   Internal Loan Review and Grading. The bank’s internal loan review and
         grading process did not identify problem loans in a timely manner. For example,
         examiners downgraded 36 loans totaling approximately $230 million during the
         February 2009 examination that had not been properly graded by the bank’s
         internal loan review process.

     •   Portfolio Stress Testing. R-G Premier did not conduct stress testing of its loan
         portfolio to determine the impact that various economic scenarios might have on
         the institution’s asset quality, capital, earnings, and liquidity as recommended in
         the Joint Guidance. The lack of stress testing limited the institution’s ability to
         effectively assess its exposure to a downturn in the Puerto Rico real estate market.

     •   Allowance for Loan and Lease Losses. R-G Premier’s ALLL methodology did
         not comply with the December 2006 Interagency Policy Statement on the
         Allowance for Loan and Lease Losses in the years preceding its failure. As a
         result, the bank did not make sufficient provisions to its ALLL, which resulted in
         overstated earnings and capital. For example, the February 2009 examination
         report concluded that the bank’s ALLL was underfunded by $29 million. In
         addition, a targeted asset quality review (TAQR) completed by the FDIC in
         December 2009 found that the bank’s flawed ALLL methodology had contributed
         to a $227.8 million underfunded ALLL.

Reliance on Non-Core Funding

Even under the unique funding circumstances that Puerto Rico banks faced, R-G Premier
maintained a high reliance on non-core funding sources, particularly brokered deposits, to
provide the bank with adequate liquidity and support its operations, including its lending
activities.11 As reflected in Figure 5, R-G Premier’s ratio of brokered deposits to total
assets trended higher as compared to other institutions in Puerto Rico and the bank’s peer
group for the 5-year period ended 2009. In addition, the bank’s ratio of brokered deposits
to total assets was higher than the average of other banks in Puerto Rico beginning in
2007. During this same period, R-G Premier’s reliance on other non-core funding
sources, such as Federal funds purchased and other borrowings, declined. Management
determined that brokered deposits were more cost-effective and expeditious to acquire
than growing deposits through the institution’s branch network.




11
  See the Background section of this report for an explanation regarding why banks in Puerto Rico were
generally more dependent on brokered deposits than banks in the U.S.
                                                     13
Figure 5: Trend in R-G Premier’s Brokered Deposits Relative to Total Assets
                                   Brokered Deposits to Total Assets

                    40%


                    35%       R-G Premier Bank
                              PR State Average
                    30%
                              Peer Group
       Percentage




                    25%


                    20%


                    15%


                    10%


                    5%


                    0%
                          Dec-05         Dec-06       Dec-07          Dec-08          Dec-09

                                                  Period Ended

Source: OIG Analysis of UBPRs for R-G Premier and other banks in Puerto Rico.


When properly managed, brokered deposits offer a number of important benefits, such as
ready access to funding in national markets when core deposit growth in local markets
lags planned asset growth. However, brokered deposits also present potential risks, such
as increased volatility when interest rates change and statutory restrictions when the
credit risk profile of an institution deteriorates. Under distressed financial or economic
conditions, institutions could be required to sell assets at a loss in order to fund deposit
withdrawals and other liquidity needs.

In March 2006, the FDIC and OCFI issued a Cease and Desist Order (C&D) requiring,
among other things, that R-G Premier develop a written liquidity plan. Although the
bank developed such a plan, it did not specifically address circumstances under which the
bank’s access to brokered deposits might become restricted. Between the end of 2006
and the end of 2008, R-G Premier’s brokered deposits increased from approximately
$1.8 billion (or 39 percent of total deposits) to over $2.2 billion (or 50 percent of total
deposits).12 During 2009, the bank experienced a significant decline in its asset quality
that limited its access to external sources of liquidity. In addition, the bank’s liquid assets
(defined as investment securities, trading account assets, interest bearing balances, and
cash) as a percent of total assets were declining.

On August 3, 2009, the OCFI formally notified the Board of R-G Premier that, based on
the results of the February 2009 examination, the institution had fallen to Adequately
Capitalized for purposes of PCA. As a result, the institution was prohibited from
accepting, renewing, or rolling over brokered deposits without first seeking a waiver from
the FDIC. Given the bank’s heavy reliance on brokered deposits, an inability to access
this funding source would trigger a near-term liquidity crisis. In October 2009, the FDIC
granted a brokered deposit waiver that allowed the bank to accept, renew, and roll over
up to 75 percent of the brokered deposits on the bank’s balance sheet through January

12
     During this same time period, R-G Premier was experiencing a decrease in its core deposits.
                                                     14
2010. In February 2010, the FDIC extended the brokered deposit waiver through April
30, 2010. On April 27, 2010, the FDIC formally notified the institution that it had fallen
to Significantly Undercapitalized and was no longer permitted to accept, renew, or roll
over brokered deposits. The OCFI closed R-G Premier 3 days later.


The FDIC’s Supervision of R-G Premier
The FDIC, in coordination with the OCFI, provided ongoing supervisory oversight of
R-G Premier through regular on-site examinations, visitations, a targeted review, and
various offsite monitoring activities. The FDIC also coordinated with representatives of
the FRB on supervisory issues of mutual interest. Notably, in 2006, the FDIC’s New
York Regional Office (NYRO) recognized the need to closely monitor economic and
banking trends in Puerto Rico. Those monitoring efforts led to the development of an
integrated supervisory strategy in the fall of 2007 for all institutions operating in Puerto
Rico. This broader strategy consisted of: (1) annual on-site safety and soundness
examinations performed jointly with the OCFI, (2) offsite monitoring activities, and
(3) TAQRs and horizontal loan classification reviews.

Through its supervisory efforts, the FDIC identified risks in R-G Premier’s operations
and brought these risks to the attention of the institution’s Board and management
through examination reports, correspondence, and formal and informal enforcement
actions. Such risks included the lack of current consolidated financial statements and
Call Reports, the need to improve credit administration practices in light of the
weakening economy, and a heavy reliance on non-core funding sources. The FDIC’s
supervisory activities were also instrumental in implementing a well-coordinated
resolution of R-G Premier, Westernbank Puerto Rico, and Eurobank.

To address R-G Premier’s improper accounting for mortgage loan transactions, the FDIC
downgraded the bank’s supervisory ratings, implemented a C&D, and coordinated with
the FRB and the OCFI to conduct a review of RGFC and its affiliates for other potential
safety and soundness concerns. The FDIC also monitored the bank’s corrective actions
thereafter. Such a supervisory response was comprehensive and consistent with the risks
that the mortgage loan accounting issues presented to the bank.

At the time of the September 2005 and October 2006 examinations, the bank was
increasing its ADC lending while the attention of the Board and management was
focused on addressing issues pertaining to the improper accounting for mortgage loan
transactions. Examiners lowered the bank’s Management component rating to a “3”
based, in part, on less than satisfactory risk management practices. With respect to loan
underwriting and credit administration, examiners found those practices to be generally
satisfactory. Further, examiners determined that the bank’s capital was satisfactory but
recommended in the October 2006 examination that the institution’s capital plan be
enhanced. While it is evident that the FDIC evaluated and monitored R-G Premier’s
activities in these areas, subsequent examinations found the bank’s capital plan to be
unsatisfactory and loan underwriting and credit administration to be inadequate.

                                             15
A general lesson learned with respect to weak risk management practices is that early
supervisory intervention is prudent, even when an institution is considered Well
Capitalized and has relatively few classified assets. In this regard, stronger supervisory
action, such as an informal enforcement action, to address the weak risk management
practices identified during the December 2007 examination may have been prudent.
Earlier supervisory intervention may have better positioned R-G Premier to work through
the loan deterioration that developed as the Puerto Rico real estate market deteriorated,
mitigating, to some extent, the financial problems experienced by the bank.

Further, while banks in Puerto Rico faced unique challenges in attracting core deposits,
earlier supervisory concern with respect to the bank’s heavy reliance on brokered
deposits to support its operations (including lending) might have been prudent. Earlier
concern in this regard may have influenced R-G Premier’s Board to reduce its
dependency on brokered deposits, thereby reducing the bank’s liquidity risk profile.

The FDIC has taken a number of steps to enhance its supervision program based on the
lessons learned from financial institution failures during the financial crisis. With respect
to the issues discussed in this report, the FDIC has, among other things, provided training
to its examination workforce wherein the importance of assessing an institution’s risk
management practices on a forward-looking basis was emphasized. The FDIC has also
issued supervisory guidance addressing risks associated with ADC lending and funds
management practices.

Supervisory History

The FDIC and OCFI conducted a total of five on-site risk management examinations, one
visitation, and one targeted review of R-G Premier between 2004 and the bank’s failure.
Table 2 summarizes key supervisory information pertaining to these supervisory
activities.




                                             16
Table 2: On-site Examinations, Visitation, and Targeted Review of R-G Premier
  Examination           Type of                           Supervisory          Informal or Formal
                                          Regulator
   Start Date         Examination                           Ratings              Action Taken***
   11/16/2009           TAQR             FDIC/OCFI          554553/5         C&D Remained in Effect
   2/23/2009             Risk            FDIC/OCFI                           Amended C&D Effective
                      Management                            444543/4           October 23, 2009
   12/28/2007            Risk            FDIC/OCFI
                      Management                            333322/3        C&D Remained in Effect
    8/15/2007         Visitation*            FDIC                          C&D and BBR Remained in
                                                               NA                   Effect
   10/30/2006            Risk            FDIC/OCFI                          C&D Remained in Effect;
                      Management                                                BBR effective
                                                            223322/2            August 7, 2007
    9/12/2005            Risk            FDIC/OCFI                                C&D effective
                      Management                           223223/2**             March 16, 2006
    7/28/2004            Risk            FDIC/OCFI                                MOU effective
                      Management                            112111/1             December 8, 2004
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
           on the Net system for R-G Premier.
* The purpose of the visitation was to assess the bank’s subprime lending and nontraditional mortgage
activities.
** The FDIC issued an interim ratings downgrade during the examination to 323233/3 based on the bank’s
improper accounting for mortgage loan transactions. The downgrade became effective February 22, 2006.
Prior to the completion of the examination, the FDIC revised the bank’s ratings to 223223/2.
*** Informal enforcement actions often take the form of Bank Board Resolutions (BBR) or Memoranda of
Understanding (MOU). Formal enforcement actions often take the form of C&Ds but under severe
circumstances can also take the form of insurance termination proceedings.

In addition to the examinations, visitation, and TAQR described in Table 2, the FDIC, the
FRB, and the OCFI conducted an on-site coordinated review of the operations of RGFC
and its affiliates in April 2006. The purpose of the review was to determine whether
there were any material safety and soundness weaknesses associated with the mortgage
banking business of RGFC and its affiliates.

Informal and Formal Actions

As reflected in Table 2, the FDIC, in coordination with OCFI, implemented several
formal and informal enforcement actions to address safety and soundness concerns at the
bank in the years preceding its failure. A brief description of these actions follows.

    •   December 8, 2004 MOU. The purpose of the MOU was to address extensive and
        persistent weaknesses in the bank’s Bank Secrecy Act (BSA)/Anti Money
        Laundering (AML) program.

    •   March 16, 2006 C&D. The purpose of the C&D was to address safety and
        soundness concerns pertaining to the bank’s improper accounting for certain
        mortgage loan transactions, the majority of which were consummated between
        2002 and 2004. Among other things, the C&D required the bank to engage an
        independent consultant to conduct a comprehensive review of the institution’s
        mortgage loan activities and related accounting practices; submit capital and
                                                    17
         liquidity plans; obtain prior regulatory approval for dividend payments and
         affiliate transactions; and promptly correct its Call Reports. RGFC entered into a
         similar agreement with the FRB in March 2006.

     •   August 7, 2007 BBR. The purpose of the BBR was to address various
         weaknesses in the bank’s BSA/AML program.

     •   October 23, 2009 Amended C&D. The purpose of this C&D was to amend the
         March 16, 2006 C&D to include provisions for addressing safety and soundness
         deficiencies identified during the February 2009 examination. Among the new
         provisions was a requirement for the bank to maintain capital ratios above the
         minimum thresholds for Well Capitalized institutions.

The formal and informal actions described above required R-G Premier to provide the
FDIC and OCFI with periodic progress reports describing the bank’s remedial actions.

Offsite Monitoring

The FDIC’s offsite monitoring procedures generally consisted of using automated tools13
to help identify potential supervisory concerns and contacting the bank’s management
from time to time to discuss current and emerging issues and ongoing efforts to address
regulatory concerns. R-G Premier appeared on the FDIC’s Offsite Review List14 six
times between June 2007 and June 2009, principally because of the growing deterioration
in the bank’s ADC loan portfolio. The FDIC coordinated the results of its offsite
monitoring with its on-site examination activities. In mid-2007, the FDIC identified a
general deterioration in the financial condition of banks in Puerto Rico caused by a
decline in the local economy. In response to this deterioration, the FDIC formulated an
integrated supervisory strategy for all institutions operating in Puerto Rico. A description
of this strategy follows.

Supervisory Strategy for Puerto Rico

In March 2006, the NYRO Regional Risk Committee (RRC)15 decided to include Puerto
Rico as a unique risk area in its quarterly assessment due to emerging concerns associated
with economic and banking conditions in Puerto Rico. According to FDIC guidance, the
mission of an RRC is to:

     •   review and evaluate regional economic and banking trends;

     •   develop follow-up strategies;

13
   The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.
14
   The Offsite Review List identifies institutions warranting heightened supervisory oversight.
15
   FDIC’s policy requires that each region have an RRC.
                                                       18
   •   allocate resources, where necessary, to implement follow-up strategies and
       actions; and

   •   prepare a regional matrix that summarizes the level of concern (i.e., magnitude of
       concern) and level of exposure (likely impact of adverse risk areas on the region’s
       banking industry).

Beginning in March 2006, the NYRO RRC quarterly summary reports reflect extensive
discussions about economic conditions in Puerto Rico and planned supervisory strategies.
In June 2007, the NYRO decided to develop a separate comprehensive supervisory
strategy for Puerto Rico for the 2008 examination cycle because economic data revealed,
among other things, four consecutive quarters of job losses. Further, the region’s
assessment of June 30, 2007 Call Report data showed signs of deterioration in the
financial performance of banks in Puerto Rico. Specifically, earnings performance had
significantly declined during 2007 due to increasing provision expenses associated with a
deterioration in asset quality. At the time, the NYRO was particularly concerned about
the potential risks associated with consumer loans.

Specifically, the region was concerned that overall growth in consumer lending in Puerto
Rico, coupled with the extent of job losses, would lead to additional asset quality
problems in the future. Puerto Rico banks historically reported a past-due ratio for
consumer loans that greatly exceeded the national median ratio. Between 2004 and 2009,
the national median past-due ratio for consumer loans ranged from a low of 1.65 percent
at year-end 2006 to a high of 1.97 percent at year-end 2009. During the same time
period, the Puerto Rico banks reported a low of 3.73 percent in 2005 to a high of
6.95 percent in 2007. The increase in the Puerto Rico past-due levels was of significant
concern in 2006 as the Puerto Rico banks in aggregate had consumer loan exposure close
to 100 percent of their capital. According to the September 2007 RRC summary report,
the region was also beginning to highlight trends in CRE and ADC concentrations in
order to identify institutions with concentrations above supervisory thresholds defined in
the Joint Guidance issued in December 2006. Concentrations were of heightened
concern because Puerto Rico had lost jobs for more than two consecutive quarters, which
may have been indicative of a recession. Further, the deteriorating trend showed signs of
continuing.

The 2008 NYRO Supervisory Strategy for Puerto Rico captured (1) an overall view of
identified risks for each of the banks; (2) a supervisory snapshot of each bank, including a
summary describing each bank’s primary business lines; and (3) resource needs. The
supervisory strategy was comprised of a combination of point in time examinations,
visitations, targeted reviews, horizontal reviews, and quarterly offsite analysis, with an
emphasis on evaluating asset quality. The strategy was implemented on January 1, 2008
and updated for 2009.

Another aspect of the region’s strategy involved regular communication with officials
from Puerto Rico’s Governor’s offices, including the Government Development Bank
(GDB) (the GDB operates in a role similar to that of a central bank) to identify options
for reducing the volume of non-performing assets on the island. Efforts were also made
                                            19
to jointly monitor economic conditions with GDB and OCFI to ensure effective
communication in the event of one or more bank failures.

Supervisory Response to Improper Accounting and Reporting for Mortgage Loan
Transactions

The FDIC’s supervisory response with respect to the improper accounting and reporting
for mortgage loan transactions was comprehensive and consistent with the risks that these
issues presented to the bank. Examiners first noted concerns pertaining to R-G Premier’s
mortgage loan accounting and reporting during the September 2005 examination.
Examiners held the examination open until late 2006 to fully assess the risks associated
with this matter. A brief summary of the more salient actions taken by the FDIC during
the September 2005 examination to address the mortgage loan accounting and reporting
issues follows.

   •   Ratings Downgrade. The FDIC downgraded the bank’s ratings on an interim
       basis from 112111/1 to 323233/3 in February 2006. Based on the remedial
       actions taken by the bank to address the mortgage loan accounting and reporting
       issues, the FDIC raised the bank’s ratings to 223223/2 at the conclusion of the
       examination.

   •   C&D. The FDIC implemented a C&D in March 2006. Among other things, the
       C&D required the bank to engage an independent consultant to conduct a
       comprehensive review of the institution’s mortgage loan activities and related
       accounting practices; develop a written capital plan to ensure adequate capital was
       maintained by the bank in light of the reclassification of any mortgage portfolio;
       develop a written plan for the maintenance of adequate liquidity; obtain prior
       regulatory approval for dividend payments and affiliate transactions; and
       promptly correct Call Reports. RGFC entered into a similar agreement with the
       FRB in March 2006.

   •   Interagency Review. The FDIC, the FRB, and the OCFI conducted an on-site,
       coordinated review of the operations of RGFC and its affiliates in April 2006.
       The purpose of the review was to identify potential safety and soundness
       weaknesses associated with the mortgage banking business of RGFC and its
       subsidiaries. The review found that the unwinding of several mortgage loan
       transactions had led to apparent violations of Sections 23A and 23B of the Federal
       Reserve Act. Specifically, when the bank repurchased certain mortgage loans, it
       assumed low quality assets to the benefit of an affiliate and relieved RGFC and
       another affiliate of certain guarantees without compensation to the bank.

   •   Monitoring. The FDIC monitored the remedial efforts of R-G Premier and its
       parent company through status reports required by the C&D and on-site and
       offsite supervisory activities.

The October 2006 examination report stated that although RGFC and R-G Premier had
taken a number of actions to correct the problems resulting from the reclassification of
                                            20
the mortgage loan transactions, additional remedial action was required. Specifically,
RGFC needed to complete the restatement of its consolidated financial statements so that
R-G Premier could file amended prior period Call Reports. In addition, some of the
bank’s reclassified mortgage loan transactions had not yet been unwound. Examiners
also recommended that the bank enhance its capital and liquidity plans required by the
March 2006 C&D. Management officials advised examiners that the financial
restatement effort had sometimes impaired management’s ability to address deficiencies
in the bank’s operations. Examiners assigned a Management component rating of “3”
during the examination due do management’s less than satisfactory performance.

The December 2007 examination report noted that the bank had substantially completed
its efforts to unwind the mortgage loan transactions and that RGFC had restated its
consolidated financial statements for the periods 2002 through 2004. In addition, Call
Report amendments for 2002 through 2004 had been filed in June 2008. However,
consolidated financial statements for 2005 through 2007 had not yet been issued, and the
bank was continuing to use estimated figures in its Call Reports for these periods.

According to examination records that we reviewed, R-G Premier’s President and CEO
indicated that the primary reason for the delays in the restatement process was “back and
forth” negotiations between the bank and its independent accounting firm regarding the
language that would be included in the explanatory notes to the financial statements. In
addition, Division of Supervision and Consumer protection (DSC) examiners advised us
that the bank’s auditors experienced difficulties working with the institution’s
information systems, which contributed to the prolonged restatement process. Apparent
violations of Sections 23A and 23B of the Federal Reserve Act were also cited in
connection with the unwinding of the transactions.

Examiners further determined during the December 2007 examination that the bank’s
capital was less than satisfactory due to the ongoing deterioration in the loan portfolio,
weak earnings, lack of current consolidated financial statements, and the poor financial
condition of RGFC. The examination report noted that the bank’s capital plan was broad
in nature and dependent on RGFC’s ability to serve as a source of financial strength.
Examiners again assigned a Management component rating of “3” due to management’s
continued lack of satisfactory performance and downgraded the bank’s composite rating
to a “3.”

The February 2009 examination report noted that RGFC had issued consolidated
financial statements for the years 2005 through 2007, but that consolidated financial
statements for 2008 had not yet been issued. In addition, the bank had not amended its
Call Reports since, and including, the December 31, 2005 report. Examiners also noted
instances in which regulatory approvals were not requested or obtained prior to entering
into certain affiliate transactions, which resulted in apparent violations of Sections 23A
and 23B of the Federal Reserve Act. Further, examiners determined that the bank’s
capital was deficient and that the bank either needed to raise new capital or find an
acquirer. Examiners downgraded both the Management component and composite
ratings to a “4.”


                                            21
With respect to R-G Premier’s filing of Call Reports, examiners appropriately noted their
concerns in examination reports and such concerns were included in the March 2006
C&D. According to examination reports, R-G Premier continued to regularly file Call
Reports while RGFC worked to complete the financial restatement process. The Call
Reports included estimated figures to reflect the adjustments that management expected
would be required as a result of the improper accounting for the mortgage loan
transactions. Examiners advised us that the estimated figures were not found to be
materially inaccurate.

Supervisory Response to ADC Lending Risks

As previously discussed, at the time of the September 2005 and October 2006
examinations, the bank was placing emphasis on ADC lending and the attention of the
Board and management was focused on addressing issues pertaining to the improper
accounting for mortgage loan transactions. Further, R-G Premier’s ADC loans had
certain risk characteristics that were unique to Puerto Rico, such as longer timeframes for
construction projects than in the U.S. During those examinations, R-G Premier’s
adversely classified assets were at manageable levels, and examiners found the
institution’s ADC lending practices to be generally satisfactory. In addition, examiners
determined that the bank’s capital was satisfactory, but recommended in the
October 2006 examination that the capital plan be enhanced to describe how the bank
would attract additional sources of capital and how the bank’s capital ratios might be
impacted by the various scenarios described in the plan.

During the December 2007 examination, examiners determined that the bank’s loan
underwriting and credit administration practices were generally adequate, but that they
were not consistent throughout the bank until recently. For example, examiners noted
that although the bank’s credit policies were satisfactory, management approved many
policy exceptions on a loan-by-loan basis without a mechanism to track the aggregate
level or materiality. In addition, the Loan Department structure had not previously
provided for separation of duties in such areas as appraisal order and review or credit risk
analysis. Examiners made a number of recommendations during the December 2007
examination to improve the bank’s controls pertaining to the lending function and its risk
monitoring practices. Among other things, examiners recommended that the bank
strengthen its documentation of underwriting analysis and ongoing supervision of
participation loans, enhance its methodologies for calculating loan-to-value ratios and
monitoring adherence to regulatory guidelines for real estate lending, establish loan
concentration limits, and develop a strategic plan that would address the impact and
planned actions of further potential market declines.

The December 2007 examination report also noted that although the bank was Well
Capitalized, substantial contingencies existed which could negatively affect the bank’s
capital ratios. Such contingencies included a further decline in the quality of the bank’s
assets and the results of the financial restatement process. The examination report also
stated that the bank’s capital plan was broad in nature and dependent on RGFC to serve
as a source of financial strength. However, as noted in the examination report, RGFC
had well-publicized problems at that time and was not a source of financial strength to

                                             22
R-G Premier. In addition, examiners noted that the economic downturn in Puerto Rico
was negatively affecting the performance of the bank’s loans, particularly its ADC loans,
and downgraded the bank’s Asset quality, Capital, and composite ratings to a “3.”

By the February 2009 examination, R-G Premier’s adversely classified assets totaled
almost $1.2 billion, or 183 percent of the bank’s Tier 1 Capital plus the ALLL. Almost
90 percent of these classifications consisted of loans, the majority of which were ADC
loans. Examiners that we spoke with indicated that weak loan administration practices
were a particularly significant factor in the decline of the bank’s loan quality. Examiners
also noted that the bank failed to promptly recognize ADC loan problems and losses as
they became apparent and extended or renewed troubled ADC loans without adequate
financial analysis, including obtaining quality appraisals, when the Puerto Rico real estate
market declined. In addition, the February 2009 examination report stated that the loan
deterioration was attributed to liberal lending practices on construction and land
development loans, coupled with lax underwriting and credit administration weaknesses,
all of which were exacerbated by the depressed real estate market and economy in Puerto
Rico. The examination report added that from 2005 through 2007, management was
focused on growing the CRE portfolio, particularly the construction and land loan
portfolio, without concern for satisfactory underwriting.

Based on the results of the February 2009 examination, examiners downgraded the
bank’s Asset quality, Capital, and composite ratings to a “4” and issued an amended
C&D in October 2009 to address the deficiencies identified during the examination. The
FDIC identified further substantial deterioration in R-G Premier’s financial condition
during the November 2009 TAQR. Specifically, the bank’s ALLL methodology and loan
impairment analyses were flawed, resulting in a shortfall in the ALLL by approximately
$228 million. Based on the preliminary results of the TAQR, the FDIC downgraded the
bank’s composite rating to a “5” effective December 4, 2009.

Supervisory Lessons Learned

Examiners considered R-G Premier’s management performance to be less than
satisfactory during the September 2005 examination and lowered the component rating
for Management to a “3.” Management never received a satisfactory rating thereafter
based, in part, on less than satisfactory risk management practices. With respect to the
bank’s loan underwriting and credit administration, examiners found practices in those
areas to be generally satisfactory during the September 2005 and October 2006
examinations. Further, examiners determined that the bank’s capital was satisfactory
during those examinations but recommended in the October 2006 examination that the
institution’s capital plan be enhanced. While it is evident that the FDIC evaluated and
monitored R-G Premier’s activities in these areas, subsequent examinations found the
bank’s capital plan to be unsatisfactory and loan underwriting and credit administration to
be inadequate.

A general lesson learned with respect to weak risk management practices, particularly as
they relate to lending activities in general and ADC concentrations in particular, is that
early supervisory intervention is prudent, even when an institution is considered Well

                                            23
Capitalized and has relatively few classified assets. While the FDIC downgraded the
bank’s Asset quality, Capital, and composite ratings to a “3” during the December 2007
examination, stronger supervisory action to address the weak risk management practices
identified by examiners may have been prudent considering such factors as:

   •   the vulnerability of CRE and ADC concentrations to economic cycles;

   •   the market factors that made ADC lending in Puerto Rico riskier than in other
       U.S. markets;

   •   the importance of strong underwriting and credit administration practices to
       mitigate risk, particularly in a weakening economy; and

   •   R-G Premier’s less than satisfactory capital position for is risk profile

Stronger supervisory action could have included an informal enforcement action to
address the credit administration and internal control weaknesses contained in the
December 2007 examination report and/or requiring the bank to hold additional capital
consistent with its growing risk profile. The FDIC became sharply critical of the bank’s
lending practices and capital position during the February 2009 examination as
management struggled to address projects that were experiencing difficulty. Examiners
made numerous recommendations and issued a C&D to address the underwriting of
renewals and extensions, and overall portfolio administration and monitoring. However,
by that time, the institution’s lending markets were deteriorating, making remedial efforts
difficult. Earlier supervisory intervention may have better positioned the bank to work
through the loan deterioration that developed as the Puerto Rico real estate market
deteriorated, mitigating, to some extent, the financial problems experienced by the bank.

Supervisory Response to Non-Core Funding Reliance

The FDIC initially identified concerns with R-G Premier’s liquidity risk management
practices during the September 2005 examination. During the examination, the FDIC
issued a C&D that required the bank to, among other things, develop a liquidity plan.
Examiners reviewed the plan during the examination and determined that it was
acceptable. Notwithstanding the continued uncertainties associated with the bank’s
improper accounting for mortgage loan transactions, examiners determined that the
bank’s liquidity risk management practices were generally satisfactory and assigned a
component rating of “2” for Liquidity at the conclusion of the examination.

Examiners determined during the October 2006 examination that the bank’s liquidity risk
management practices continued to be generally satisfactory and assigned a component
rating of “2” for Liquidity. Examiners also recommended that the bank improve its
liquidity and funds management practices in a number of areas. Among other things,
examiners recommended that the bank enhance its liquidity plan to identify and assess
the adequacy of contingency funding sources, including circumstances in which the bank
might use them. Examiners also recommended that the bank perform liquidity stress
testing and document its liquidity risk limits.
                                             24
Examiners expressed concern with respect to the bank’s tightening liquidity position
during the December 2007 examination but concluded that the bank’s liquidity risk
management practices were generally adequate and assigned a component rating of “2”
for Liquidity. Notably, the December 2007 examination report recommended that the
bank develop a contingency funding plan for brokered deposits that would address,
among other things, potential statutory restrictions on this funding source should the
bank’s PCA capital category fall below Well Capitalized. During the February 2009
examination, examiners found that R-G Premier’s liquidity risk profile had increased
substantially and assigned a component rating of “4” for Liquidity. Among other things,
examiners determined that the bank had far less balance sheet liquidity than it did during
the prior examination and that brokered deposits had increased 16 percent during 2008 to
$2.2 billion. However, the bank had not developed a contingency plan for its brokered
deposits as examiners had recommended in the prior examination.

The OCFI transmitted the results of the February 2009 examination on August 3, 2009.
The examination results stated that the bank was considered Adequately Capitalized for
PCA purposes and, as a result, was prohibited from accepting, renewing, or rolling over
brokered deposits without a waiver from the FDIC. In a letter dated August 24, 2009,
R-G Premier requested that the FDIC grant the institution a brokered deposit waiver. At
that time, the bank had an average of $97 million in brokered deposits maturing monthly,
and without continued access to brokered deposits, the bank would experience a liquidity
crisis. The FDIC granted R-G Premier a limited brokered deposit waiver in a letter dated
October 23, 2009. The waiver allowed the bank to renew its brokered deposits in an
amount equal to 75 percent of the amount of brokered deposits recorded on the bank’s
balance sheet as of October 23, 2009. The waiver permitted the bank to renew these
brokered deposits through January 31, 2010.

In a letter dated December 30, 2009, the institution requested that the FDIC extend the
bank’s brokered deposit waiver through April 30, 2010. During January 2010, when the
FDIC was considering the brokered deposit waiver, the preliminary results of the
November 2009 TAQR indicated substantial deterioration in the bank’s loan portfolio.
Based on the preliminary results of the review, it appeared that the bank would become
Significantly Undercapitalized. DSC examination staff informed us that the results of the
TAQR were analyzed closely in early 2010 because of significant differences between
examiner and internal bank classifications at R-G Premier, Westernbank Puerto Rico, and
Eurobank. Specifically, examiners for the three banks conducted a horizontal review in
January 2010 to ensure that CRE loan classifications were consistent for the institutions.
In a letter dated February 12, 2010, the FDIC approved R-G Premier’s request for an
extension of its brokered deposit waiver.

Part 325 of the FDIC Rules and Regulations states that a bank is deemed to be within a
given capital category for purposes of section 38 of the FDI Act as of the most recent
date that:

   •   a Call Report is required to be filed with the FDIC;

   •   a final report of examination is delivered to the bank; or
                                            25
   •   written notice is provided by the FDIC to the bank of its capital category for
       purposes of section 38 of the FDI Act.

In this case, the FDIC did not finalize the results of the TAQR until late April 2010. The
review concluded that the bank was indeed Significantly Undercapitalized. On April 27,
2010, the FDIC hand-delivered a letter to R-G Premier’s Board stating that the bank was
considered Significantly Undercapitalized and that the institution could no longer accept,
renew, or roll over brokered deposits. The OCFI closed R-G Premier 3 days later.

Supervisory Lessons Learned

While banks in Puerto Rico faced unique challenges in attracting core deposits, earlier
supervisory concern with respect to the bank’s heavy reliance on brokered deposits might
have been prudent. Specifically, examiners could have expanded their recommendations
to improve the bank’s liquidity and funds management practices during the October 2006
examination to address the need for the bank to reduce is reliance on brokered deposits
and develop a viable contingency plan in the event that brokered deposits became
restricted. A viable contingency plan could have also considered funding risks and
uncertainties caused by the bank’s accounting issues. Examiners recommended that the
bank develop a contingency plan for brokered deposits during the December 2007
examination. However, the bank did not address this recommendation. Heightened
monitoring of the bank’s use of brokered deposits following the October 2006
examination might have been beneficial. Earlier action to address the bank’s heavy
reliance on brokered deposits may have influenced R-G Premier’s Board to reduce its
reliance on brokered deposits, thereby reducing the bank’s liquidity risk profile.

In August 2008, the FDIC issued FIL-84-2008, entitled Liquidity Risk Management,
which stresses the importance of contingency funding plans for institutions the use
wholesale funding sources, including brokered deposits. In addition, in March 2009, the
FDIC issued FIL 13-2009, entitled The Use of Volatile or Special Funding Sources by
Financial Institutions that are in Weakened Condition. FIL 13-2009 states that FDIC-
supervised institutions having a composite rating of “3,” “4,” or “5” are expected to
establish and implement appropriate plans to mitigate the risks associated with the use of
potentially volatile liabilities.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of
section 38 is to resolve problems of insured depository institutions at the least possible
cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations
defines the capital measures used in determining the supervisory actions that will be
taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
                                            26
the institution’s compliance with its capital restoration plan, mandatory restrictions
defined under section 38(e), and discretionary safeguards imposed by the FDIC (if any)
to determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to R-G Premier, the FDIC properly
implemented applicable PCA provisions of section 38. Among other things, the FDIC
formally notified the bank when its capital category changed; considered the bank’s
capital category when making safety and soundness decisions, including decisions on
brokered deposit waivers, as discussed in the prior section of this report; reviewed and
monitored the institution’s Call Reports and liquidity reports; and conducted periodic
discussions with the institution’s management regarding its efforts to raise needed capital
and comply with applicable PCA restrictions. Table 3 illustrates R-G Premier’s capital
levels relative to the PCA thresholds for Well Capitalized institutions as reported by the
institution in its Call Reports.

Table 3: R-G Premier’s Capital Levels, 2005 to 2009

     Period Ended       Tier 1             Tier 1 Risk-      Total Risk-          PCA Capital Category
                        Leverage           Based             Based
                        Capital            Capital           Capital
 Well Capitalized
                         5% or more         6% or more        10% or more
 Thresholds
 R-G Premier’s Capital Levels
     Dec-2005            5.27                   9.98              10.95         Well Capitalized
     Dec-2006            5.83                   10.37             11.54         Well Capitalized
     Dec-2007            6.37                   10.13             11.39         Well Capitalized
     Dec-2008            5.84                   8.50              9.78          Adequately Capitalized
     Dec-2009            5.53                   7.53               8.81         Adequately Capitalized
Source: UBPRs for R-G Premier.
Note: Many of the capital ratios in the table reflect the results of amended Call Reports filed by R-G Premier
after an initial Call Report had been filed. The narrative below provides a chronological description of the
changes in the bank’s capital categories and the FDIC’s implementation of PCA.

R-G Premier was considered Well Capitalized until August 3, 2009, when the OCFI
formally transmitted the results of the February 2009 examination to the bank’s Board
indicating that the institution was Adequately Capitalized. Examiners noted during the
examination that R-G Premier had overstated its capital position as of December 31, 2008
by approximately $98 million because the bank had not provided an adequate provision
for loan loss. As a result, R-G Premier’s initial Call Report filing for December 31, 2008
indicating that the bank was Well Capitalized was not correct.16 The FDIC directed R-G
Premier to amend its Call Reports to reflect the results of the February 2009 examination.
The FDIC also reminded the institution of the restrictions imposed on Adequately
Capitalized institutions, including the restriction on the solicitation, renewal, and roll
over of brokered deposits without an approved waiver from the FDIC.



16
  R-G Premier’s initial Call Report filing for December 31, 2008 reflected Tier 1 Leverage, Tier 1 Risk-
Based, and Total Risk-Based Capital ratios of 6.88 percent, 9.89 percent, and 11.16 percent, respectively.
                                                    27
As an Adequately Capitalized institution, R-G Premier was not required to develop a
capital restoration plan under PCA. However, examiners determined during the February
2009 examination that bank’s capital position was deficient given its risk profile. As a
result, the FDIC and the OCFI included a provision in the October 2009 amended C&D
that required the bank to submit a capital restoration plan within 45 days of the Order. R-
G Premier submitted such a plan to the FDIC on December 7, 2009. Generally, the plan
focused on finding a merger partner, transferring assets between an affiliate, cost-cutting
initiatives, asset sales, and asset quality improvement. The plan also indicated that
another institution planned to conduct due diligence at the bank during the first quarter of
2010 and that discussions with other investors were underway.

On April 5, 2010, R-G Premier’s Board Chairman notified the FDIC’s Case Manager for
R-G Premier that the institution referenced above had concluded its due diligence but was
no longer interested in an open bank transaction. In addition, no other prospective
investors had been identified. In a letter dated April 19, 2010, the FDIC notified R-G
Premier’s Board that the bank’s capital restoration plan was unacceptable and that the
Board needed to immediately provide the FDIC with its plans to contribute capital or sell
or merge the bank with another federally insured depository institution. In a hand-
delivered letter dated April 27, 2010, the FDIC notified the bank’s Board that, based on
further substantial deterioration in the bank’s financial condition identified during the
November 2009 TAQR, the bank was considered Significantly Undercapitalized. The
OCFI closed the bank 3 days later because it did not have sufficient capital to support its
operations and its liquidity position was severely strained.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
December 2, 2010, the DSC Director provided a written response to the draft report.
That response is provided in its entirety as Appendix 5 of this report. In the response,
DSC reiterated the OIG’s conclusions regarding the causes of R-G Premier’s failure.
With regard to our assessment of the FDIC’s supervision of R-G Premier, DSC reiterated
the supervisory activities described in our report and noted that the bank’s Board and
management were unable to adequately address supervisory recommendations and
enforcement measures.

The response noted that DSC has issued guidance to enhance its supervision of
institutions, such as R-G Premier, that rely heavy on volatile funding sources. In
addition, the response noted that DSC had completed an examiner training program that
emphasized a forward-looking approach to assessing a bank’s risk profile. The response
added that the early use of informal enforcement actions to pursue correction of weak risk
management practices is consistent with forward-looking supervision.




                                             28
                                                                           Appendix 1

                   Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the Deposit Insurance Fund
incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency
reviewing the agency’s supervision of the institution. The Financial Reform Act amends
section 38(k) by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. The
FDI Act requires that the report be completed within 6 months after it becomes apparent
that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of R-G Premier’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of R-G
Premier, including the FDIC’s implementation of the PCA provisions of section 38 of the
FDI Act.

We conducted this performance audit from July 2010 to November 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of R-G Premier’s operations from 2004 until
it failed on April 30, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution during the same period. To accomplish the objectives, we
performed the following procedures and techniques:

•   Analyzed examination reports and other supervisory documents prepared by the
    FDIC and the OCFI from 2004 until the bank closed.

•   Reviewed the following:

       •   Institution data in Call Reports, UBPRs, and other reports.

       •   FDIC and OCFI correspondence, including correspondence maintained in
           DSC’s New York Regional Office.

       •   Relevant reports prepared by DRR and DSC relating to the institution’s
           closure, including records maintained by DRR in Puerto Rico.



                                            29
                                                                              Appendix 1

                   Objectives, Scope, and Methodology

       •   Pertinent FDIC regulations, policies, procedures, and guidance.

•   Interviewed DSC personnel in the FDIC’s New York, Jamesburg, NJ, and San Juan
    offices.

•   Interviewed OCFI examiners and managers to obtain their perspectives and discuss
    their role in the supervision of the institution.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand R-G Premier’s management controls pertaining to
the causes of failure and material losses as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.
Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA. We performed limited tests
to determine compliance with certain aspects of the FDI Act and the FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.
Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional

                                            30
                                                                              Appendix 1

                   Objectives, Scope, and Methodology

material loss review reports related to failures of FDIC-supervised institutions and these
reports can be found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the
objectives of which are to (1) determine the actions that the FDIC has taken to enhance
its supervision program since May 2009, including those specifically in response to the
May 2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent material loss reviews.

In addition, with respect to more in-depth coverage of specific issues, in May 2010, the
OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            31
                                                                                    Appendix 2

                                 Glossary of Terms

Term                 Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development, and funding for acquiring and developing land for future construction, and
Construction     providing interim financing for residential or commercial structures.
(ADC) Loans
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for        The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease       book value of loans and leases to the amount that is expected to be
Losses (ALLL)        collected. It is established in recognition that some loans in the institution’s
                     overall loan and lease portfolio will not be repaid. Boards of directors are
                     responsible for ensuring that their institutions have controls in place to
                     consistently determine the allowance in accordance with the institutions'
                     stated policies and procedures, generally accepted accounting principles,
                     and supervisory guidance.

Cease and Desist     A C&D is a formal enforcement action issued by a financial institution
Order (C&D)          regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
                     stop an unsafe or unsound practice or a violation of laws and regulations.
                     A C&D may be terminated when the bank’s condition has significantly
                     improved and the action is no longer needed or the bank has materially
                     complied with its terms.
Concentration        A concentration is a significantly large volume of economically related
                     assets that an institution has advanced or committed to a certain industry,
                     person, entity, or affiliated group. These assets may, in the aggregate,
                     present a substantial risk to the safety and soundness of the institution.

FDIC’s               The FDIC’s supervision program promotes the safety and soundness of
Supervision          FDIC-supervised institutions, protects consumers’ rights, and promotes
Program              community investment initiatives by FDIC-supervised institutions. The
                     FDIC’s DSC (1) performs examinations of FDIC-supervised institutions to
                     assess their overall financial condition, management policies and practices
                     (including internal control systems), and compliance with applicable laws
                     and regulations and (2) issues related guidance to institutions and
                     examiners.




                                              32
                                                                                 Appendix 2

                               Glossary of Terms


Global Cash Flow    A global cash flow analysis is a comprehensive evaluation of borrower
Analysis            capacity to perform on a loan. During underwriting, proper global cash
                    flow must thoroughly analyze projected cash flow and guarantor support.
                    Beyond the individual loan, global cash flow must consider all other
                    relevant factors, including: guarantor’s related debt at other financial
                    institutions, future economic conditions, as well as obtaining current and
                    complete operating statements of all related entities. In addition, global
                    cash flow analysis should be routinely conducted as a part of credit
                    administration. The extent and frequency of global cash flow analysis
                    should be commensurate to the amount of risk associated with the
                    particular loan.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                    Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                    period beginning January 1, 2010 and ending December 31, 2011, a
                    material loss is defined as any estimated loss in excess of $200 million.

Offsite Review      The FDIC’s Offsite Review Program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory strategies
                    can be adjusted appropriately. Offsite reviews are performed quarterly for
                    each bank that appears on the Offsite Review List. Regional management
                    is responsible for implementing procedures to ensure that Offsite Review
                    findings are factored into examination schedules and other supervisory
                    activities.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the Deposit Insurance
(PCA)               Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                    Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for determining capital adequacy and
                    taking supervisory actions against depository institutions that are in an
                    unsafe or unsound condition. The following terms are used to describe
                    capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action
                    or compliance with the PCA statute with respect to an institution that falls
                    within any of the three categories of undercapitalized institutions.




                                            33
                                                                             Appendix 2

                           Glossary of Terms


Section 23A     Section 23A (1) establishes limits on the amount of ‘‘covered transactions’’
                between a member bank and its affiliates (any one affiliate and in the
                aggregate as to all affiliates); (2) requires that all covered transactions
                between a member bank and its affiliates be on terms and conditions that
                are consistent with safe and sound banking practices; (3) prohibits the
                purchase of low quality assets from an affiliate; and (4) requires that
                extensions of credit by a member bank to an affiliate, and guarantees on
                behalf of affiliates, be secured by statutorily defined amounts of collateral.

Tier 1 (Core)   In general, this term is defined in Part 325 of the FDIC Rules and
Capital         Regulations, 12 C.F.R. section 325.2(v), as
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, foreign currency translation
                adjustments, less net unrealized losses on available-for-sale securities with
                readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4 and
                • Deferred tax assets in excess of the limit set forth in section
                325.5(g).
Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the Federal Financial Institutions Examination
                Council for the use of banking supervisors, bankers, and the general public
                and is produced quarterly from data reported in Reports of Condition and
                Income submitted by banks.

Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in
Institutions    six components represented by the CAMELS acronym: Capital adequacy,
Rating System   Asset quality, Management practices, Earnings performance, Liquidity
                position, and Sensitivity to market risk. Each component, and an overall
(UFIRS)
                composite score, is assigned a rating of 1 through 5, with 1 having the least
                regulatory concern and 5 having the greatest concern.




                                        34
                                                                                  Appendix 3

                                ACRONYMS


ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to Market Risk

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

IO       Interest Only

MOU      Memorandum of Understanding

NYSE     New York Stock Exchange

OCFI     Office of the Commissioner of Financial Institutions

OIG      Office of Inspector General

PCA      Prompt Corrective Action

PRIC     Puerto Rico Investment Company

RGFC     R&G Financial Corporation

SEC      Securities and Exchange Commission

TAQR     Targeted Asset Quality Review

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                         35
                                                                                                    Appendix 4


            Apparent Violations and Contraventions, 2004 to 2009



Applicable Laws, Rules
   and Regulations                            Description                      2009   2007   2006   2005   2004
                              Requires insured institutions to file with
     FDIC Rules and           regulators copies of an annual report
       Regulations            containing audited annual financial
 Section 363.4(a) and (b)     statements.
                              Requires appraisals for certain real estate-
    FDIC Rules and            related transactions unless there has been
   Regulations Section        no obvious and material change in market
     323.3(a)(7)(i)           conditions.
                              Provides that all insured nonmember banks
                              are subject to the restrictions contained in
                              FRB regulations prohibiting a bank from
     FDIC Rules and           paying an overdraft for executive officers
 Regulations Part 337.3(a)    and directors of banks and affiliates.
                              States in part that loans and other
                              extensions of credit issued on behalf of an
                              affiliate by a member bank or its subsidiary
                              shall be secured at the time of the
                              transaction by collateral having a market
  Federal Reserve Bank        value of 120 percent of the amount of such
 Regulations Section 23A      loan or extension of credit.
                              Provides in part that a member bank and its
                              subsidiaries may engage in a covered
                              transaction with an affiliate on terms and
                              under circumstances, including credit
  Federal Reserve Bank        standards, that are substantially the same as
 Regulations Section 23B      those involving nonaffiliated companies.
                              States in part that institutions should have
                              policies that specify the types of market
Investment Securities and     risk analyses that should be conducted for
  End-User Derivatives        various types or classes of instruments
Activities, August 31, 1998   prior to their acquisition.
   Joint Agency Policy        States in part that each institution should
Statement on Interest Rate    conduct periodic reviews of the interest
    Risk, July 12, 1996       rate risk management process.
                              States in part that the ALLL level should
                              be prudent, conservative, but not excessive,
 Interagency Statement of     and that the ALLL should fall within an
Policy on the Allowance for   acceptable range of estimated losses, which
  Loan and Lease Losses,      are appropriate for the risk inherent in the
    December 29, 2006         portfolio.
     Interagency Policy       States that each institution should have an
 Statement on the Internal    internal audit function that is appropriate to
  Audit Function and its      its size and the nature and scope of its
        Outsourcing           activities.
Examination D




                                                         36
                                                                                         Appendix 5

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                 Division of Supervision and Consumer Protection

                                                                          December 1, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson [signed by Sandra L. Thompson]
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, Material Loss Review of R-G
                 Premier Bank of Puerto Rico, Hato Rey, Puerto Rico (Assignment No. 2010-068)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank
Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office
of Inspector General (OIG) conducted a material loss review of R-G Premier Bank of Puerto Rico,
Hato Rey, Puerto Rico (R-G), which failed on April 30, 2010. This memorandum is the response of the
Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report received on
November 10, 2010.

R-G failed primarily because the Board and management did not provide effective oversight and failed
to react in a timely manner to the deteriorating economic conditions in Puerto Rico. During the years
preceding its failure, R-G increased its exposure to acquisition, development and construction loans
without commensurate credit administration and related monitoring practices. The inadequate practices
coupled with lax underwriting led to the development of loan problems when Puerto Rico’s real estate
market deteriorated. Provisions and loan losses associated with this deterioration depleted R-G’s
earnings, eroded its capital, and strained its liquidity, as it relied on brokered deposits to fund its
operations. Ultimately, R-G did not have sufficient capital to support its operations and its liquidity
position was severely strained.

The FDIC and OCFI conducted annual joint examinations, offsite monitoring activities and targeted
asset quality reviews. In 2005, R-G’s management component rating was lowered to a “3” based, in
part, on less than satisfactory risk management practices. In 2007, the FDIC and OCFI downgraded R-
G’s composite rating to “3,” and continued to progressively downgrade component and composite
ratings at subsequent examinations and used enforcement actions to secure R-G’s correction of
deficiencies. R-G’s Board and management was unable to adequately address supervisory
recommendations and enforcement measures.

DSC issued a Financial Institution Letter in 2009 on The Use of Volatile or Special Funding Sources
by Financial Institutions That Are in a Weakened Condition to enhance our supervision of institutions,
such as R-G, with heavy reliance on volatile funding sources. Additionally, DSC has completed an
examiner training program that emphasizes a forward looking approach when assessing a bank’s risk
profile. The training reinforced consideration of risk management practices in conjunction with
current financial performance, conditions, or trends when assigning ratings and contemplating
corrective actions. The early use of informal enforcement actions to pursue correction of weak risk
management practices is consistent with forward looking supervision.

Thank you for the opportunity to review and comment on the Report.


                                                    37
